          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Site Visit Report




        American Recovery and
        Reinvestment Act Site Visit of
        Las Marias Potable Water System
        Phase IIA Project, Las Marias,
        Puerto Rico
        Report No. 11-R-0241

        May 25, 2011
Report Contributors:                               Jean Bloom
                                                   Glen Chabotar
                                                   Vanessa Rodriguez




Abbreviations

DBA           Davis-Bacon Act
DWSRF         Drinking Water State Revolving Fund
EPA           U.S. Environmental Protection Agency
OIG           Office of Inspector General
PRASA         Puerto Rico Aqueduct and Sewer Authority


Cover photo: Pipes at the Las Marias Potable Water System Phase IIA construction site,
             Las Marias, Puerto Rico. (Photo courtesy Constructora De Aguada, Inc.)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                             11-R-0241
                                                                                                        May 25, 2011
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review              American Recovery and Reinvestment Act
                                    Site Visit of Las Marias Potable Water System
The U.S. Environmental
Protection Agency, Office of        Phase IIA Project, Las Marias, Puerto Rico
Inspector General, conducts site
visits of American Recovery and      What We Found
Reinvestment Act of 2009
(Recovery Act) funded clean         We conducted an unannounced site visit of the Las Marias Potable Water
water and drinking water            System Phase IIA project in Las Marias, Puerto Rico, in August 2010. We
projects. We selected the project   toured the project site; interviewed personnel from PRASA and the Puerto Rico
in Las Marias, Puerto Rico, for     Department of Health, as well as the prime contractor’s manager and
review.                             employees; and reviewed documentation related to Recovery Act requirements.

Background                          Based on our site visit, no issues or concerns came to our attention that would
                                    require action from the Commonwealth of Puerto Rico, PRASA, or the U.S.
The Puerto Rico Aqueduct and        Environmental Protection Agency.
Sewer Authority (PRASA)
received $19.5 million in
Recovery Act funds from the
Puerto Rico Infrastructure
Finance Authority under the
Drinking Water State Revolving
Program administered by the
Puerto Rico Department of
Health. The Las Marias Potable
Water System Phase IIA project
in Las Marias, Puerto Rico,
received $5,574,410 in Recovery
Act funds, consisting of a
$3,189,359 grant and a
$2,385,051 loan.



For further information, contact
our Office of Congressional,
Public Affairs and Management
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110525-11-R-0241.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL



                                           May 25, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act
          Site Visit of Las Marias Potable Water System Phase IIA Project,
          Las Marias, Puerto Rico
          Report No. 11-R-0241


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Judith A. Enck
               Regional Administrator, Region 2


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency (EPA). The report summarizes the results of our site visit
of the Las Marias Potable Water System Phase IIA project in Las Marias, Puerto Rico, funded
under the American Recovery and Reinvestment Act of 2009 (Recovery Act).

We performed this site visit as part of our responsibility under the Recovery Act. The purpose of
our site visit was to determine whether the Puerto Rico Aqueduct and Sewer Authority complied
with selected requirements of the Recovery Act pertaining to the Drinking Water State
Revolving Fund program. The Puerto Rico Aqueduct and Sewer Authority received
$19.5 million in funding from the Puerto Rico Infrastructure Financing Authority, acting on
behalf of the Commonwealth of Puerto Rico, under the Drinking Water State Revolving Fund
program. The Las Marias project received $5,574,410 in Recovery Act funds under the Drinking
Water State Revolving Fund program.

The estimated direct labor and travel costs for this report are $59,060.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
The report will be made available at http://epa.gov/oig. If you or your staff have any questions
regarding this report, please contact Melissa Heist, Assistant Inspector General for Audit, at
(202) 566-0899 or heist.melissa@epa.gov; or Robert Adachi, Director of Forensic Audits, at
(415) 947-4537 or adachi.robert@epa.gov.
Purpose
            The purpose of our unannounced site visit was to determine the Puerto Rico
            Aqueduct and Sewer Authority’s (PRASA’s) compliance with selected
            requirements of the American Recovery and Reinvestment Act of 2009 (Recovery
            Act) that pertain to the Drinking Water State Revolving Fund (DWSRF) Program.

Background
            U.S. Environmental Protection Agency awarded $19.5 million in Recovery Act
            funds to the Commonwealth of Puerto Rico under the DWSRF program. The
            DWSRF program is administered by the Puerto Rico Department of Health and is
            assisted by the Puerto Rico Environmental Quality Board and the Puerto Rico
            Infrastructure Financing Authority. Puerto Rico Infrastructure Financing
            Authority entered into a financial agreement with PRASA to fund drinking water
            projects. The Las Marias Potable Water System Phase IIA project was selected to
            receive Recovery Act funds in the amount of $5,574, 410, consisting of a
            $3,189,359 grant and a $2,385,051 loan. The loan has a 20-year maturity with an
            interest rate of 2 percent annum.

Scope and Methodology
            Due to the time-critical nature of the Recovery Act requirements, we did not
            perform this site visit in accordance with generally accepted government auditing
            standards. Specifically, we did not determine whether previous audit work was
            completed in this area or assess PRASA’s internal controls. As a result, we do not
            express an opinion on the adequacy of PRASA’s internal controls or its
            compliance with all federal, state, or local requirements.

            We conducted our site visit during the weeks of August 9 and August 16, 2010.
            During our visit, we:

               1. 	 Toured the construction project
               2. 	 Interviewed prime contractor employees and managers on site and
                    personnel from PRASA and the Puerto Rico Department of Health
               3. Reviewed documentation maintained by PRASA and the prime contractor
                    on the following matters:
                        a. 	 Buy American requirements under Section 1605 of the Recovery
                             Act
                        b. 	 Wage Rate (Davis-Bacon Act (DBA) requirements under Section
                             1606 of the Recovery Act
                        c. Contract procurement
                        d. 	 Limit on funds and reporting requirements under Sections 1604
                             and 1512 of the Recovery Act




11-R-0241                                                                                    1
Results of Site Visit
            Based on our site visit, no issues or concerns came to our attention that would
            require action from the U.S Environmental Protection Agency, Commonwealth of
            Puerto Rico, or PRASA. The results of our procedures are summarized below.

            Buy American Requirements

            We did not identify any issues regarding Buy American requirements. Based on
            our interviews and work performed, PRASA and the contractor are fully aware of
            the Buy American requirements under Section 1605 of the Recovery Act. The
            Buy American requirements were included in the contract bid and contract
            documents. Based on our physical observations of materials on site, and Internet
            research performed on the manufacturers, materials used for the project comply
            with Buy American requirements.

            Wage Rate Requirements

            We did not identify any issues or concerns regarding wage requirements under
            Section 1606 of the Recovery Act. Section 1606 of the Recovery Act requires all
            mechanics and laborers employed on projects funded directly by—or assisted in
            whole, or in part with—Recovery Act funds to be paid wages at rates no less than
            the locally prevailing rate, as determined by the U.S. Department of Labor. These
            wages are commonly known as DBA wages and generally include a requirement
            that employers submit certified payroll reports to the Department of Labor. To
            comply with DBA requirements, contractors signed weekly payrolls certifying
            compliance with DBA rates and submitted copies to PRASA. We selected two
            pay periods for testing: the pay period ending August 15, 2010, and the pay period
            ending July 18, 2010. We reviewed certified payrolls and verified that the
            contractor was at least paying its employees the minimum required DBA wage
            rates.

            Contract Procurement

            We did not identify any issues or concerns with contract procurement or unfair
            bidding practices. The construction contract was competitively awarded based on
            public advertisement. Twelve bids were received and—based on the
            recommendation of its bid board—PRASA awarded the contract to the lowest
            responsive bidder. We contacted three of the unsuccessful bidders and confirmed
            their participation in the bidding process. Overall, the bidders contacted were
            satisfied with the procurement process and no issues were identified.

            Limit on Funds and Reporting Requirements

            We did not identify any issues of concern. Under Section 1604 of the Recovery
            Act, no funds can be used for any casino, other gambling establishment,



11-R-0241                                                                                   2
            aquarium, zoo, golf course, or swimming pool. We reviewed the prime contract to
            verify that it contained the appropriate language to comply with Section 1604 of
            the Recovery Act.

            We did not identify any issues regarding PRASA’s ability to meet Recovery Act
            financial management and reporting requirements. We interviewed PRASA
            personnel to obtain an understanding of the reporting process. We also reviewed
            an example of the tables that include the Section 1512 required reporting
            information submitted by PRASA to the Environmental Quality Board and the
            Puerto Rico Department of Health.

Recommendations
            We have no recommendations.

Recipient Response and Office of Inspector General Comment
            As we have no recommendations, we did not require or receive written comments to
            the draft report. We held an exit conference on April 26, 2011. No comments were
            provided during the exit conference.




11-R-0241                                                                                      3
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                  No recommendations.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-R-0241                                                                                                                              4
                                                                              Appendix A

                                    Distribution
Office of the Administrator
Regional Administrator, Region 2
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Region 2
Public Affairs Officer, Region 2
Executive Infrastructure Director, Puerto Rico Aqueduct and Sewer Authority
Director, Potable Water Division, Puerto Rico Department of Health
Director, Caribbean Environmental Protection Division, Region 2




11-R-0241                                                                              5
